OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SRI LANKA’S
SUPPORTING REGIONAL
GOVERNANCE PROGRAM

AUDIT REPORT NO. 5-383-12-006-P
JULY 16, 2012




MANILA, PHILIPPINES 

Office of Inspector General


July 16, 2012

MEMORANDUM

TO:       	          USAID/Sri Lanka Director, James Bednar

FROM: 	              Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:	            Audit of USAID/Sri Lanka’s Supporting Regional Governance Program
                     (Report No. 5-383-12-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft and have included those comments in Appendix II.

This report contains two recommendations to assist the mission in improving the overall
efficiency and effectiveness of the Supporting Regional Governance Program. On the basis of
information provided by the mission in its response to the draft report, we determined that
management decisions have been reached on Recommendations 1 and 2. Please provide the
Audit Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
with evidence of final action to close both recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during the
course of this audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
                       P   P




Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Monitoring and Evaluation System Remains Unfinished ........................................................ 5 


     Some Local Authorities Still Maintain Accounts Manually Despite Receiving Software ......... 6 


Evaluation of Management Comments..................................................................................... 8 


Appendix I—Scope and Methodology ...................................................................................... 9 


Appendix II—Management Comments ................................................................................... 11 





Abbreviations

The following abbreviations appear in this report:

CSO             civil society organization
IT              information technology
LA              local authority
M&E             monitoring and evaluation
OIG             Office of Inspector General
SUMMARY OF RESULTS 

The defeat of the Liberation Tigers of Tamil Eelam by Sri Lankan armed forces in May 2009
ended Sri Lanka’s nearly three-decade-long civil war. Although it is still unclear exactly how
many died during this conflict, the death toll from the final offensive against the Tamil Tigers in
the closing months of the war reportedly was in the thousands. Additionally, more than 300,000
people in the north were displaced, many ending up in camps or detained. With the fighting
finally over, Sri Lanka now faces the task of rebuilding. Years of conflict, however, have
weakened government institutions. The country has also seen continuing concentration of
power at the center and other developments that have undermined the rule of law and limited
citizens’ ability to criticize the state.

In March 2008, USAID signed a 5-year, $13.9 million contract with Tetra Tech ARD to
implement the Supporting Regional Governance Program, primarily in the country’s Eastern and
Northern Provinces. This program, managed by USAID/Sri Lanka’s Office of Democracy and
Governance, is to continue through February 28, 2013. The program, which began before the
end of the war, was to respond to the development needs resulting from the ongoing conflict.
Following the war, the intent of the program shifted to strengthening civic and social entities and
processes in the conflict-affected areas to promote human rights, conflict resolution and
reconciliation, good governance, and public discourse.

The Office of Inspector General (OIG) conducted this audit to determine whether the program
was achieving its overall objective. As of December 31, 2011, cumulative obligations under the
program totaled approximately $9.7 million and disbursements $8.3 million.

The audit found that the program was generally achieving its objective despite having to operate
in a restrictive environment. Program activities, for example, were often subject to government
scrutiny, delaying the start-up of some activities while also forcing Tetra Tech ARD and its
partners to exercise caution in implementing their projects. Despite these challenges, the
program’s staff has managed to implement a range of activities, and the auditors found those it
visited―while relatively small in scope―were achieving positive results at the community level.

Examples of notable achievements under the program’s four main components follow.

Promoting Human Rights and Assisting Vulnerable Groups. The program supported the
legal community and assisted vulnerable citizens including war widows.

   	 Supporting the Legal Community. The program:
      – 	 Trained 64 lawyers and 26 judges in legal matters for a post-conflict environment.
      – 	 Supported the research and publishing of a study on the writ of habeas corpus.

   	 Assisting Vulnerable Citizens. Working through local partners, the program supported
      victims of abuses by providing psychosocial counseling and legal assistance. The
      program also provided livelihood support—consisting of equipment, livestock, and other
      inputs—to female heads of household (mostly war widows). The program:
      – 	 Gave 626 women psychosocial counseling.
      – 	 Provided 2,062 people legal assistance.
      – 	 Assisted 108 war widows in establishing income-generating activities.



                                                                                                 1
   The auditors met with several war widows. One woman, after being moved to a camp in
   2006, returned to her village in 2008 with her mother and four children. Having no husband
   and limited use of her legs because of the polio she contracted at age 4, the woman relied
   heavily on her elderly mother for support. To feed the family, the mother scavenged in
   various places, including nearby fields after a harvest to collect any rice left by the farmers.
   In April 2011, the daughter received equipment through the program to start a business
   milling rice into flour for local villagers. With the income generated from this activity, she can
   now help support her family. She described her sadness when she lost her husband and
   the emotional toll of not knowing how she was going to support her children. Thanks to the
   project, however, she now feels she has “won back” her life.




   Widow in Trincomalee District, Eastern Province, mills rice using a grinder furnished by the
   program. Her old mortar and pestle are shown at right. (Photos by OIG, March 2012)


Mitigating Conflict and Promoting Peace. The program engaged religious leaders and
members of various ethnic groups in overcoming differences and building relationships.

   	 Engaging Religious Leaders in Promoting Peaceful Coexistence. The program funded
      several projects designed to engage religious leaders from the four leading faiths—
      Buddhist, Hindu, Islam, and Christian—in promoting peaceful coexistence in their
      communities. For example:

      – 	 300 Buddhist monks and nuns participated in a series of 18 forums on topics like the
          Buddhist perspective on building peace.

      –   8
          	 0 religious leaders participated in intra- and interfaith workshops intended to
          support them in reconciliation and peace-building efforts.


                                                                                                   2
              Leaders of different faiths engage in a group activity during a
              workshop to promote peaceful coexistence among their followers.
              (Photo furnished courtesy of the program)

   	 Promoting Improved Interethnic Relations. The program, working through its partners,
      also supported activities designed to promote peaceful coexistence between neighboring
      ethnic communities, focusing on 44 target villages in four conflict-affected areas. During
      visits to six of these villages, the auditors interviewed residents and found that relations
      with neighboring communities had improved considerably. Residents said that, thanks
      to the program’s initiatives, tensions had diminished, attitudes had changed, and trade
      and personal interaction between the villages had increased. In one village, Muslims
      said they previously did not interact with a nearby Tamil community, never venturing
      there for fear of being attacked. However, after engaging in activities sponsored by the
      program, such as volunteer projects, Muslim villagers now visit the Tamil village
      regularly to attend festivals, work as laborers, and buy and sell vegetables.

Strengthening Local Governance. The program, working with local governments in the
conflict-affected areas, has provided training to 43 local authorities (LAs) in Eastern Province to
develop their capacity and improve overall performance. Examples of some of the training and
technical assistance provided follow.

   	 Training. To improve governance and administration skills, the program:

       – 	 Trained 543 elected and government officials and their staff members in office
           management, accounting, and finance.

       – 	 Trained LAs and gave them software to help them maintain their financial accounts
           more effectively. According to staff members at all six of the LAs visited, use of the
           new software has substantially reduced the amount of time required to complete their
           daily ledger entries—2.5 hours to half an hour. Staff members can also finalize their
           accounts at the end of the year and generate reports much faster.

   	 Providing technical assistance. The program gave partner LAs technical support hosting
      public forums intended to allow local citizens to provide input on matters such as local
      development plans and help make the decision-making process more transparent.


                                                                                                 3
Promoting Public Discourse. The program promotes public discourse on local issues partly
through support to civil society organizations (CSOs). Using grants to these organizations, the
program has directly supported 44 CSOs, providing direct financial support to help sustain them,
as well as capacity building and technical support to improve their ability to implement projects.
Through these CSOs, the program has indirectly benefited 328 community-based organizations
(like the one shown below), many of which received training under the program to help
empower their members to address a variety of community issues.




           In the village of Brainthuraichenai in Batticaloa District, members gather
           for a meeting of a women’s rural development society, one of the many
           community-based organizations receiving training and other support
           through the program. (Photo by OIG, March 2012)

Despite these accomplishments, the audit disclosed the following problem areas:

   The monitoring and evaluation system remains unfinished (page 5).
   Some LAs still maintain accounts manually despite receiving software (page 6).

The report recommends that USAID/Sri Lanka:

1. 	Implement a strategy to complete the development of an electronic monitoring and
    evaluation system to support a large civil society organization (page 6).

2. 	Meet with appropriate Sri Lankan Government officials and coordinate the necessary
    actions to ensure that LAs provided with the program’s financial management software are
    permitted to use the software to maintain their financial accounts without also having to
    maintain these accounts manually (page 7).

A detailed discussion of the audit findings appears in the following section. The scope and
methodology are described in Appendix I. USAID/Sri Lanka’s written comments on the draft
report are included in Appendix II. Our evaluation of these comments appears on page 8.


                                                                                                4
AUDIT FINDINGS 

Monitoring and Evaluation
System Remains Unfinished
As part of its efforts to support civil society, the program has been working with a local CSO,
Sarvodaya, one of the largest in Sri Lanka. Reaching more than 15,000 villages nationwide, the
organization is also the largest provider of relief and rehabilitation in the conflict-affected areas
in northern and eastern Sri Lanka. In October 2010, the program awarded a 1-year grant,
valued at approximately $84,200, to a local information technology (IT) firm to work with
Sarvodaya to create an automated monitoring and evaluation (M&E) system. The system would
enable the CSO to monitor its activities, particularly those under donor-funded projects, more
effectively and report on these activities on time and with greater accuracy.

After working with Sarvodaya to develop the concept for the M&E system, which included an
electronic database, the IT firm drafted software specifications to meet the requirements
communicated by the CSO.            Problems arose, however, during the vetting of these
specifications. Sarvodaya, for example, solicited input from its stakeholders throughout the
vetting process instead of at the outset, increasing the number of changes to be made.
Although the IT firm tried to incorporate some changes, its staff concluded after the third round
of review that the extent of changes requested was well beyond the parameters of the grant.

After reviewing the matter, the mission decided in late April 2011 to terminate this activity for the
time being in light of the problems encountered and the lack of funding available under the
program to complete the task. As a result, Sarvodaya has no electronic M&E system for
collecting, storing, and reporting results data.

Sarvodaya’s staff members expressed an urgent need for this new automated M&E system.
Presently, results data are compiled manually by Sarvodaya’s field office staff before being sent
to headquarters in Colombo to be summarized for reporting. With more than 60 projects to
manage (at least 30 funded by donor agencies), staff members are under considerable strain
compiling and summarizing results data to meet the reporting requirements of the donor
agencies at the end of each reporting cycle. Since Sarvodaya has few staff members to carry
out this labor-intensive process, they focus on satisfying the reporting requirements, with little or
no tracking or analyses taking place. Despite these efforts, Sarvodaya is still experiencing
delays in its reporting to donors, prompting complaints on the part of some, including one that
reportedly terminated a $1.5 million project, after just 6 months because of delayed reporting.

At the time of the audit, mission officials indicated that the completion of the database will be
carried out under a capacity-building component of a follow on program expected to begin in
fiscal year 2013. While the mission’s commitment to completing this activity is commendable,
we believe that before resuming it, appropriate steps must be incorporated into the design to
address the underlying factors (e.g., Sarvodaya’s failure to communicate a single set of
requirements to the IT firm before specifications were drafted) that prevented the database from
proceeding beyond the design phase. This is critical so that the same problems do not recur
and further jeopardize USAID’s investment in this activity. To ensure that this is done, we
recommend the following.




                                                                                                   5
      Recommendation 1. We recommend that USAID/Sri Lanka implement a strategy to
      complete the development of an electronic database representing the final stage of a
      new monitoring and evaluation system for Sarvodaya, an activity initiated under the
      Supporting Regional Governance Program. At a minimum, the strategy should specify
      the (1) estimated cost of the remaining work, (2) scope of work to be performed, (3)
      steps the mission plans to take to minimize communication issues between Sarvodaya
      and the contractor hired to develop the database, (4) the period of work, and (5) plans to
      provide technical support to Sarvodaya in implementing its new monitoring and
      evaluation system.


Some Local Authorities Still
Maintain Accounts Manually
Despite Receiving Software
Under its local governance component, the program provided training to government officials
and their staff members at 43 LA offices in Sri Lanka’s Eastern Province.1 This activity―which
emphasized the role of LAs, participatory processes, and transparency and
accountability―consisted of five training modules, including one focused on financial
management (office management, accounting, and finance). As part of this training module,
participating LAs received financial management software to automate their financial accounts
and enable the LAs to maintain these accounts more effectively.

During fieldwork the audit team visited six LAs, including three in Batticaloa District. In
interviews with staff members at each location who were responsible for maintaining the
financial accounts, the auditors verified that the LAs were all using the new financial
management software (shown on the next page) for maintaining their financial ledger accounts.
The auditors noted, however, that the LAs in Batticaloa District continued to maintain their
accounts manually as well, thereby duplicating their work and requiring more―not less―time to
complete their daily ledger postings.

When asked why this was being done, officials at the LAs in question explained that the
assistant commissioner for local governance for Batticaloa District, who had authority over this
process, did not feel comfortable switching entirely to the new software without having a set of
manually prepared records as a backup. A program officer later stated that he had discussed
the matter earlier with the assistant commissioner. Although the commissioner agreed, at least
in principle, to stop requiring the LAs to maintain their accounts manually, the staff members at
the LAs visited indicated that they had not yet been notified by his office of this change.

As a result, the LAs in this district continue to maintain their ledger accounts manually while
entering data into the database using the software, duplicating effort and preventing them from
benefiting from the time savings that could be achieved by using the software for maintaining
their account ledgers―in other words, defeating the purpose of this activity. According to one
LA official, because of this practice, the primary benefit of the new software comes from using it
to generate reports.




1
    LAs are divided into municipal councils, urban councils, and divisional councils or pradeshiya sabhas.



                                                                                                             6
                  Computer screen displays financial management software
                  provided to local authorities in Eastern Province to help
                  them maintain their financial accounts more effectively.
                  (Photo by OIG, March 2012)

To ensure that LAs benefit from the new financial management software, they must be
permitted to discontinue maintaining their ledger accounts manually; otherwise, the task will
require more work and time than necessary. Although the assistant commissioner has
reportedly agreed to allow the switchover, follow-up is needed to ensure that this is done. To
this end, we recommend the following.

   Recommendation 2. We recommend that USAID/Sri Lanka’s mission director meet
   with appropriate Sri Lankan Government officials to request that the local authorities in
   Sri Lanka’s Batticaloa District be permitted to maintain their financial ledger accounts
   using the financial management software provided under the Supporting Regional
   Governance Program and be authorized to discontinue maintaining these accounts
   manually to benefit from the use of the software.




                                                                                               7
EVALUATION OF MANAGEMENT
COMMENTS
The mission provided comments in response to the draft report. Our evaluation of management
comments follows.

Recommendation 1. The mission generally agreed with the recommendation and outlined the
actions it plans to take to complete Sarvodaya’s M&E system. These include: (1) meetings with
personnel from both Sarvodaya and the original IT firm to review lessons learned and ascertain
the scope of technical assistance and training still required and (2) hiring an independent
consultant to prepare the various documents needed for developing the M&E system under the
mission’s planned Support for Professional and Institutional Capacity Enhancement Program.
Under this program, the mission plans to provide technical assistance and training to assist
Sarvodaya in fulfilling its commitments under this M&E activity; a sub-grant to Sarvodaya to
provide technical facilitators for the consultative process required to design the M&E database;
and a sub-award to an IT provider to design and develop the electronic M&E system for
Sarvodaya. The mission expects to complete final action no later than 12 months following the
date of this report (i.e., July 16, 2013). Therefore, a management decision has been reached
on this recommendation.

Recommendation 2. The mission agreed with the recommendation. The comments indicated
that the mission director will discuss the matter with the chief secretary of the Eastern Provincial
Council and the commissioner for the local government for Eastern Province during a trip in
September 2012. During this meeting, the mission director will discuss a recent circular issued
by the chief accountant of the commissioner of local government’s office instructing all local
authorities designated as divisional councils (pradeshiya sabhas) to use the program-funded
financial management software. Further, the mission director will seek a commitment from the
two provincial officials to discontinue use of the manual ledgers. Following the trip, the mission
will provide the OIG with a trip report documenting this meeting and outlining the discussion
between the mission director and the provincial officials. The mission expects to complete final
action by October 31, 2012. Accordingly, a management decision has been reached on this
recommendation.




                                                                                                  8
                                                                                            Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis. The
purpose of this audit was to determine whether the program was achieving its overall objective
of strengthening civic and social entities and processes in the conflict-affected areas to promote
human rights, conflict resolution and reconciliation, good governance, and public discourse.

To implement the program, USAID/Sri Lanka signed a contract valued at approximately $13.9
million with Tetra Tech ARD, covering the period from March 5, 2008, to February 28, 2013. As
of December 31, 2011, cumulative obligations under the program totaled approximately $9.7
million, and disbursements totaled $8.3 million.

The audit covered activities from the program’s inception through December 31, 2011. Audit
work involved (1) ascertaining the achievements to date under the program’s four main
components, (2) determining whether the program appeared to be making satisfactory progress
toward addressing the subobjectives under each component, (3) validating selected
performance results data against supporting records, and (4) conducting field visits to selected
activity sites to interview partners, local officials, religious leaders, and villagers to solicit their
feedback on program activities and evidence of any impact these activities had achieved.

In planning the audit, the auditors identified relevant controls used by the mission to manage the
program and oversee program activities. Key controls included the quarterly progress reports
(issued by the implementer) and regular contact between the mission’s contracting officer’s
technical representative (now called the contracting officer’s representative) and the
implementer’s chief of party. Additionally, the auditors examined the mission’s fiscal year 2011
annual self-assessment of management controls, which the mission is required to perform to
comply with the Federal Managers’ Financial Integrity Act of 1982,2 to determine whether the
assessment cited any relevant weaknesses.

In reviewing program activities, the auditors selected a judgmental sample of the program’s
grants and subcontracts awarded as of December 31, 2011. This sample consisted of 10
completed or ongoing grants and subcontracts (out of a universe of approximately 60), which
collectively had cumulative obligations of approximately $1.4 million as of December 31, 2011,
representing approximately 42 percent of the audit universe ($3.3 million).

Audit fieldwork took place from March 1 to April 3, 2012, at the USAID mission and at the
implementer’s main office, both in Colombo. In addition, auditors made a 12-day field trip to
Eastern Province to visit selected activity sites in the eastern districts of Trincomalee and
Batticaloa and in the north-central district of Polonnaruwa. During this field trip, the auditors
traveled to 20 towns and villages located in these districts, where they interviewed partner staff
members, local officials, religious leaders, community groups, and other villagers.

2
    Public Law 97-255, codified at 31 U.S.C. 3512



                                                                                                      9
                                                                                        Appendix I


Methodology
To determine whether the program was achieving its overall objective, the audit team initially
examined the program’s quarterly progress reports to ascertain the status of program activities
and the accomplishments and key deliverables achieved under these activities. The team also
interviewed the mission’s contracting officer’s technical representative and the implementer’s
chief of party and reviewed correspondence and other records, including prior assessments, to
gain further understanding of the program and its activities.

Since the program’s activities were to a large extent carried out through small grants and
subcontracts (the majority of these less than $50,000), the audit reviewed a judgmental sample
of these grants and subcontracts to determine whether the activities they funded were
contributing to the program’s overall objective. Because most (approximately 82 percent) of the
total monies obligated under these instruments were allocated to the (1) human security,
(2) conflict mitigation and peace-building mechanisms, and (3) local governance components,
sample selection and review focused primarily on the activities under these three components.

In reviewing the activities under the sampled grants and subcontracts, the auditors (1) reviewed
the grant or subcontract document to identify the objective(s) and key deliverables, (2) reviewed
excerpts of the implementer’s progress reports to assess the status of the activity and determine
whether there have been any implementation problems, (3) interviewed responsible staff
members with the implementer and grantee or subcontractor, and (4) made field visits to
selected activity sites to interview beneficiaries, including local officials, and solicit their
feedback on the activity to assess whether it was achieving its sub objective(s) and the impact,
if any, achieved.

The auditors selected a judgmental sample of results data for testing. This consisted of data
cited in the implementer’s two annual progress reports, covering the fiscal years ending
September 30, 2010, and September 30, 2011. For each selected item, the audit team checked
the data against records on file at the implementer’s main office or at the grantee’s office in the
field to verify that the reported results data were accurate and reliable. The auditors established
a materiality threshold of 15 percent. For example, if the total deficiencies identified exceeded
15 percent of the tested data, the auditors concluded that the reported data for the activity were
not reliable or adequately supported. Because testing was based on a judgmental sample, the
results and overall conclusions could not be projected to the entire audit universe.




                                                                                                10
                                                                                      Appendix II



MANAGEMENT COMMENTS 



MEMORANDUM
TO:	           William S. Murphy, Regional Inspector General, USAID / Philippines

THRU: 	        Adam Schmidt, Acting Mission Director, USAID / Sri Lanka /s/

FROM: 	        Dinesha Fernando, Acting Office Director, Democracy and Governance
               Program

DATE: 	        June 29, 2012

SUBJECT:	 USAID Sri Lanka comments on the audit of the Mission’s Supporting
          Regional Governance (SuRG) Program (Report No. 5-383-12-00x-P)

Background:

This memorandum is the USAID Sri Lanka Mission’s formal response to the Regional Inspector
General’s (RIG) draft audit report of the Supporting Regional Governance (SuRG) Program –
Report No. 5-383-12-00x-P. Subject to the specific elements of the response outlined below, the
Mission concurs with recommendation one and proposes the specific corrective action described
below. The Mission believes that specific elements of recommendation two have been addressed
and the corrective action is outlined in this memorandum.

Recommendation 1: The Sarvodaya Monitoring and Evaluation (M&E) System

In general terms, the Mission agrees with this recommendation but believes it is important to
highlight the following issues when considering the appropriate corrective action to address the
issue of Sarvodaya’s monitoring and evaluation system.

It should be noted that USAID / SuRG supported the development of Sarvodaya’s monitoring
and evaluation system, which included a framework with indicators and training for Sarvodaya
staff by an international consultant. But, as stated in the report, the electronic system (which
would make Sarvodaya function more efficiently) has not yet been established. It is important to
highlight the ‘capacity deficit’ that may be found within local organizations. The corrective
action will require significant time and resources to be spent on building the capacity of
Sarvodaya personnel to take a paper-based M&E system and contribute towards the design, and
then manage, and fully utilize a computerized system.

                                                                                               11
                                                                                      Appendix II


USAID Sri Lanka proposes the following course of action that will be supported by the Mission
directly with follow-on support through the Mission’s anticipated Support for Professional and
Institutional Capacity Enhancement (SPICE) Program which is a three-year activity that will
strengthen the capacity of Sri Lankan institutions. The SPICE program will be awarded before
the end of the first quarter of fiscal year 2013. A component of this anticipated program is
designed to provide training and technical assistance to build the capacity of civil society
organizations and Sarvodaya will be provided with an appropriate package of technical
assistance and training for its staff to build its program management capacity. This assistance
will address a part of the Regional Inspector General’s recommendations.

The Mission proposes the following course of action to address the Regional Inspector General’s
recommendation.

   1.	 Mission staff will conduct meetings with key personnel from Sarvodaya and Infoshare
       and review the project documents to review the lessons learned from the initial efforts to
       design the Sarvodaya electronic M&E system and begin to outline the scope of the
       technical assistance and training to address the remedial actions required.
   2.	 Mission staff will review the budget estimate for the design, training of Sarvodaya staff
       and procurement of the proposed M&E system.

The abovementioned steps will be completed within 90 days of receipt of the final report from
the Regional Inspector General’s Office and result in the design of a Statement of Work (A) for
an independent consultant who will provide the following deliverables. The Mission anticipates
that the following deliverables will be supported through a consultancy supported under the
SPICE program.

   1.	 An estimated budget for the technical assistance required by Sarvodaya to implement a
       consultative process to establish the technical parameters and elements of an electronic
       M&E system.
   2.	 A Memorandum of Commitment that will be signed by the General Secretary of
       Sarvodaya to outline Sarvodaya’s commitment to a consultative process for its staff and
       that identification of key management who will be able to finalize the technical
       requirements of the organization.
   3.	 A Statement of Work (B) for an information technology provider (ITP) to work with
       Sarvodaya to design the electronic M&E system.
   4.	 A draft Memorandum of Understanding (MOU) that will be signed by Sarvodaya and the
       ITP to establish a timeframe for the deliverables in the design process by both parties;
       establish clear lines of communication between Sarvodaya and the ITP; a commitment of
       personnel and resources necessary for the deployment of the system; an undertaking and
       timeframe for the training of personnel who will use the M&E system; and the pilot
       testing of the system.

The deliverables that result from this consultancy will form the basis for the following: (a)
technical assistance and training under the Mission’s anticipated SPICE Program that will assist
Sarvodaya to ensure compliance with their commitments in the MOC and MOU described
above; (b) a sub-grant to Sarvodaya under the SPICE Program to implement the consultative



                                                                                               12
                                                                                      Appendix II


process with the assistance of technical facilitators provided through the short-term technical
assistance component of the SPICE Program; and (c) a sub-award to a information technology
provider (ITP) to design a M&E system for Sarvodaya.

The time frame for the development and implementation of a strategy is six months from the date
of award of the cooperative agreement of the SPICE program and no later than 12 months after
the receipt of the Regional Inspector-General’s final report. This is the Mission’s anticipated
plan to implement the specific elements of recommendation one.


Recommendation 2:

The Local Government Financial Management Software

The Mission concurs with the recommendation. In late Fiscal Year (FY) 2012 the USAID Sri
Lanka Mission Director will travel to the Eastern Province to meet with the Chief Secretary of
the Eastern Provincial Council and the Commissioner for Local Government for the Eastern
Province. They will discuss a recent circular dated June 13, 2012 that was issued by the Chief
Accountant of the Commissioner of Local Government’s office instructing all Pradeshiya Sabhas
to use the USAID / SuRG funded financial management software. The USAID Mission Director
will seek a commitment from the Chief Secretary and the Commissioner of Local Government to
ensure the practice of using the manual ledgers is discontinued. Furthermore, if the Eastern
Provincial Council requests additional support for local authorities in the province, USAID
proposes that a pre-condition for future assistance will be the discontinuation of the use of
ledgers in all Pradeshiya Sabhas.

The Mission Director’s field trip to the Eastern Province is scheduled for September 2012.
USAID will provide the Regional Inspector General in Manila a trip report that outlines the
discussion between the Mission Director and the Eastern Provincial Council officials.




                                                                                                  13
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
